<html>
<title> - Committee on Standards of Official Conduct <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT> Adopted September 30, 1997 105th Congress U.S. HOUSE OF REPRESENTATIVES WASHINGTON, D.C. 20515 RULES Committee on Standards of Official Conduct <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT> Adopted September 30, 1997 105th Congress U.S. HOUSE OF REPRESENTATIVES WASHINGTON, D.C. 20515</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>


                                  RULES

 
               Committee on Standards of Official Conduct               


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Adopted September 30, 1997

                             105th Congress

                      U.S. HOUSE OF REPRESENTATIVES
                         WASHINGTON, D.C. 20515






                                  RULES

                         Committee on Standards
                           of Official Conduct

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Adopted September 30, 1997
                             105th Congress

                      U.S. HOUSE OF REPRESENTATIVES
                         WASHINGTON, D.C. 20515

    ----------------------------------------------------------------
             For sale by the U.S. Government Printing Office
 Superintendent of Documents, Mail Stop: SSOP Washington, DC 20402-9328




             COMMITTEE ON STANDARDS OF OFFICIAL CONDUCT

             United States House of Representatives

                   One Hundred Fifth Congress

      JAMES V. HANSEN, Utah, Chairman
      LAMAR SMITH, Texas
      JOEL HEFLEY, Colorado
      BOB GOODLATTE, Virginia
      JOE KNOLLENBERG, Michigan

      HOWARD L. BERMAN, California, Ranking Minority Member
      MARTIN OLAV SABO, Minnesota
      ED PASTOR, Arizona
      CHAKA FATTAH, Pennsylvania
      ZOE LOFGREN, California

                              ---------

      Theodore J. Van Der Meid, Chief Counsel






                               CONTENTS

                              ---------


       RULES OF THE COMMITTEE ON STANDARDS OF OFFICIAL CONDUCT

                   PART I--GENERAL COMMITTEE RULES
                                                               Page

      RULE 1. General Provisions...............................     1
      RULE 2. Definitions......................................     2
      RULE 3. Advisory Opinions and Waivers....................     3
      RULE 4. Financial Disclosure.............................     6
      RULE 5. Meetings.........................................    11
      RULE 6. Committee Staff..................................    12
      RULE 7. Confidentiality Oaths............................    14
      RULE 8. Subcommittees--General Policy and Structure......    14
      RULE 9. Quorums and Member Disqualification..............    16
      RULE 10. Vote Requirements...............................    17
      RULE 11. Communications by Committee Members and Staff...    18
      RULE 12. Committee Records...............................    18
      RULE 13. Broadcasts of Committee and Subcommittee 
          Proceedings..........................................    20


                  PART II--INVESTIGATIVE AUTHORITY

      RULE 14. House Resolution................................    21
      RULE 15. Committee Authority to Investigate--General 
          Policy...............................................    22
      RULE 16. Complaints......................................    22
      RULE 17. Duties of Chairman and Ranking Minority Member..    25
      RULE 18. Processing of Complaints........................    27
      RULE 19. Committee-Initiated Inquiry.....................    29
      RULE 20. Investigative Subcommittee......................    30
      RULE 21. Amendments to Statements of Alleged Violation...    34
      RULE 22. Committee Reporting Requirements................    34
      RULE 23. Respondent's Answer.............................    36
      RULE 24. Adjudicatory Hearings...........................    38
      RULE 25. Sanction Hearing and Consideration of Sanctions 
          or Other Recommendations.............................    45
      RULE 26. Disclosure of Exculpatory Information to 
          Respondent...........................................    47
      RULE 27. Rights of Respondents and Witnesses.............    48
      RULE 28. Frivolous Filings...............................    52
      RULE 29. Referrals to Federal or State Authorities.......    53



                                 FOREWORD

         The Committee on Standards of Official Conduct is unique 
      in the House of Representatives. Consistent with the duty to 
      carry out its advisory and enforcement responsibilities in an 
      impartial manner, the Committee is the only standing 
      committee of the House of Representatives the membership of 
      which is divided evenly by party. These rules are intended to 
      provide a fair procedural framework for the conduct of the 
      Committee's activities and to help insure that the Committee 
      serves well the people of the United States, the House of 
      Representatives, and the Members, officers, and employees of 
      the House of Representatives.

                     PART I--GENERAL COMMITTEE RULES

                        Rule 1. General Provisions

         (a) So far as applicable, these rules and the Rules of the 
      House of Representatives shall be the rules of the Committee 
      and any subcommittee. The Committee adopts these rules under 
      the authority of clause 2(a) of Rule XI of the Rules of the 
      House of Representatives, 105th Congress.
         (b) The rules of the Committee may be modified, amended, 
      or repealed by a vote of a majority of the Committee.
         (c) When the interests of justice so require, the 
      Committee, by a majority vote of its members, may adopt any 
      special procedures, not inconsistent with these rules, deemed 
      necessary to resolve a particular matter before it. Copies of 
      such special procedures shall be furnished to all parties in 
      the matter.

                           Rule 2. Definitions

         (a) ``Committee'' means the Committee on Standards of 
      Official Conduct.
         (b) ``Complaint'' means a written allegation of improper 
      conduct against a Member, officer, or employee of the House 
      of Representatives filed with the Committee with the intent 
      to initiate an inquiry.
         (c) ``Inquiry'' means an investigation by an investigative 
      subcommittee into allegations against a Member, officer, or 
      employee of the House of Representatives.
         (d) ``Investigative Subcommittee'' means a subcommittee 
      designated pursuant to Rule 8 to conduct an inquiry to 
      determine if a Statement of Alleged Violation should be 
      issued.
         (e) ``Statement of Alleged Violation'' means a formal 
      charging document filed by an investigative subcommittee with 
      the Committee containing specific allegations against a 
      Member, officer, or employee of the House of Representatives 
      of a violation of the Code of Official Conduct, or of a law, 
      rule, regulation, or other standard of conduct applicable to 
      the performance of official duties or the discharge of 
      official responsibilities.
         (f) ``Adjudicatory Subcommittee'' means a subcommittee of 
      the Committee comprised of those Committee members not on the 
      investigative subcommittee, that holds an adjudicatory 
      hearing and determines whether the counts in a Statement of 
      Alleged Violation are proved by clear and convincing 
      evidence.
         (g) ``Sanction Hearing'' means a Committee hearing to 
      determine what sanction, if any, to adopt or to recommend to 
      the House of Representatives.
         (h) ``Respondent'' means a Member, officer, or employee of 
      the House of Representatives who is the subject of a 
      complaint filed with the Committee or who is the subject of 
      an inquiry or a Statement of Alleged Violation.
         (i) ``Office of Advice and Education'' refers to the 
      Office established by section 803(i) of the Ethics Reform Act 
      of 1989. The Office handles inquiries; prepares written 
      opinions in response to specific requests; develops general 
      guidance; and organizes seminars, workshops, and briefings 
      for the benefit of the House of Representatives.

                   Rule 3. Advisory Opinions and Waivers

         (a) The Office of Advice and Education shall handle 
      inquiries; prepare written opinions providing specific 
      advice; develop general guidance; and organize seminars, 
      workshops, and briefings for the benefit of the House of 
      Representatives.
         (b) Any Member, officer, or employee of the House of 
      Representatives, may request a written opinion with respect 
      to the propriety of any current or proposed conduct of such 
      Member, officer, or employee.
         (c) The Office of Advice and Education may provide 
      information and guidance regarding laws, rules, regulations, 
      and other standards of conduct applicable to Members, 
      officers, and employees in the performance of their duties or 
      the discharge of their responsibilities.
         (d) In general, the Committee shall provide a written 
      opinion to an individual only in response to a written 
      request, and the written opinion shall address the conduct 
      only of the inquiring individual, or of persons for whom the 
      inquiring individual is responsible as employing authority.
         (e) A written request for an opinion shall be addressed to 
      the Chairman of the Committee and shall include a complete 
      and accurate statement of the relevant facts. A request shall 
      be signed by the requester or the requester's authorized 
      representative or employing authority. A representative shall 
      disclose to the Committee the identity of the principal on 
      whose behalf advice is being sought.
         (f) The Office of Advice and Education shall prepare for 
      the Committee a response to each written request for an 
      opinion from a Member, officer or employee. Each response 
      shall discuss all applicable laws, rules, regulations, or 
      other standards.
         (g) Where a request is unclear or incomplete, the Office 
      of Advice and Education may seek additional information from 
      the requester.
         (h) The Chairman and Ranking Minority Member are 
      authorized to take action on behalf of the Committee on any 
      proposed written opinion that they determine does not require 
      consideration by the Committee. If the Chairman or Ranking 
      Minority Member requests a written opinion, or seeks a 
      waiver, extension, or approval pursuant to Rules 3(l), 4(c), 
      4(e), or 4(h), the next ranking member of the requester's 
      party is authorized to act in lieu of the requester.
         (i) The Committee shall keep confidential any request for 
      advice from a Member, officer, or employee, as well as any 
      response thereto.
         (j) The Committee may take no adverse action in regard to 
      any conduct that has been undertaken in reliance on a written 
      opinion if the conduct conforms to the specific facts 
      addressed in the opinion.
         (k) Information provided to the Committee by a Member, 
      officer, or employee seeking advice regarding prospective 
      conduct may not be used as the basis for initiating an 
      investigation under clause 4(e)(1)(B) of Rule X of the Rules 
      of the House of Representatives, if such Member, officer, or 
      employee acts in good faith in accordance with the written 
      advice of the Committee.
         (l) A written request for a waiver of House Rule LI (the 
      House gift rule), or for any other waiver or approval, shall 
      be treated in all respects like any other request for a 
      written opinion.
         (m) A written request for a waiver of House Rule LI (the 
      House gift rule) shall specify the nature of the waiver being 
      sought and the specific circumstances justifying the waiver.
         (n) An employee seeking a waiver of time limits applicable 
      to travel paid for by a private source shall include with the 
      request evidence that the employing authority is aware of the 
      request. In any other instance where proposed employee 
      conduct may reflect on the performance of official duties, 
      the Committee may require that the requester submit evidence 
      that the employing authority knows of the conduct.

                       Rule 4. Financial Disclosure

         (a) In matters relating to Title I of the Ethics in 
      Government Act of 1978, the Committee shall coordinate with 
      the Clerk of the House of Representatives, Legislative 
      Resource Center, to assure that appropriate individuals are 
      notified of their obligation to file Financial Disclosure 
      Statements and that such individuals are provided in a timely 
      fashion with filing instructions and forms developed by the 
      Committee.
         (b) The Committee shall coordinate with the Legislative 
      Resource Center to assure that information that the Ethics in 
      Government Act requires to be placed on the public record is 
      made public.
         (c) The Chairman and Ranking Minority Member are 
      authorized to grant on behalf of the Committee requests for 
      reasonable extensions of time for the filing of Financial 
      Disclosure Statements. Any such request must be received by 
      the Committee no later than the date on which the statement 
      in question is due. A request received after such date may be 
      granted by the Committee only in extraordinary circumstances. 
      Such extensions for one individual in a calendar year shall 
      not exceed a total of 90 days. No extension shall be granted 
      authorizing a nonincumbent candidate to file a statement 
      later than 30 days prior to a primary or general election in 
      which the candidate is participating.
         (d) An individual who takes legally sufficient action to 
      withdraw as a candidate before the date on which that 
      individual's Financial Disclosure Statement is due under the 
      Ethics in Government Act shall not be required to file a 
      Statement. An individual shall not be excused from filing a 
      Financial Disclosure Statement when withdrawal as a candidate 
      occurs after the date on which such Statement was due.
         (e) Any individual who files a report required to be filed 
      under title I of the Ethics in Government Act more than 30 
      days after the later of--
         (1) the date such report is required to be filed, or
         (2) if a filing extension is granted to such individual, 
      the last day of the filing extension period, is required by 
      such Act to pay a late filing fee of $200. The Chairman and 
      Ranking Minority Member are authorized to approve requests 
      that the fee be waived based on extraordinary circumstances.
         (f) Any late report that is submitted without a required 
      filing fee shall be deemed procedurally deficient and not 
      properly filed.
         (g) The Chairman and Ranking Minority Member are 
      authorized to approve requests for waivers of the aggregation 
      and reporting of gifts as provided by section 102(a)(2)(D) of 
      the Ethics in Government Act. If such a request is approved, 
      both the incoming request and the Committee response shall be 
      forwarded to the Legislative Resource Center for placement on 
      the public record.
         (h) The Chairman and Ranking Minority Member are 
      authorized to approve blind trusts as qualifying under 
      section 102(f)(3) of the Ethics in Government Act. The 
      correspondence relating to formal approval of a blind trust, 
      the trust document, the list of assets transferred to the 
      trust, and any other documents required by law to be made 
      public, shall be forwarded to the Legislative Resource Center 
      for such purpose.
         (i) The Committee shall designate staff counsel who shall 
      review Financial Disclosure Statements and, based upon 
      information contained therein, indicate in a form and manner 
      prescribed by the Committee whether the Statement appears 
      substantially accurate and complete and the filer appears to 
      be in compliance with applicable laws and rules.
         (j) Each Financial Disclosure Statement shall be reviewed 
      within 60 days after the date of filing.
         (k) If the reviewing counsel believes that additional 
      information is required because (1) the Statement appears not 
      substantially accurate or complete, or (2) the filer may not 
      be in compliance with applicable laws or rules, then the 
      reporting individual shall be notified in writing of the 
      additional information believed to be required, or of the law 
      or rule with which the reporting individual does not appear 
      to be in compliance. Such notice shall also state the time 
      within which a response is to be submitted. Any such notice 
      shall remain confidential.
         (l) Within the time specified, including any extension 
      granted in accordance with clause (c), a reporting individual 
      who concurs with the Committee's notification that the 
      Statement is not complete, or that other action is required, 
      shall submit the necessary information or take appropriate 
      action. Any amendment may be in the form of a revised 
      Financial Disclosure Statement or an explanatory letter 
      addressed to the Clerk of the House of Representatives.
         (m) Any amendment shall be placed on the public record in 
      the same manner as other Statements. The individual 
      designated by the Committee to review the original Statement 
      shall review any amendment thereto.
         (n) Within the time specified, including any extension 
      granted in accordance with clause (c), a reporting individual 
      who does not agree with the Committee that the Statement is 
      deficient or that other action is required, shall be provided 
      an opportunity to respond orally or in writing. If the 
      explanation is accepted, a copy of the response, if written, 
      or a note summarizing an oral response, shall be retained in 
      Committee files with the original report.
         (o) The Committee shall be the final arbiter of whether 
      any Statement requires clarification or amendment.
         (p) If the Committee determines, by vote of a majority of 
      its members, that there is reason to believe that an 
      individual has willfully failed to file a Statement or has 
      willfully falsified or willfully failed to file information 
      required to be reported, then the Committee shall refer the 
      name of the individual, together with the evidence supporting 
      its finding, to the Attorney General pursuant to section 
      104(b) of the Ethics in Government Act. Such referral shall 
      not preclude the Committee from initiating such other action 
      as may be authorized by other provisions of law or the Rules 
      of the House of Representatives.

                             Rule 5. Meetings

         (a) The regular meeting day of the Committee shall be the 
      second Wednesday of each month, except when the House of 
      Representatives is not meeting on that day. When the 
      Committee Chairman determines that there is sufficient 
      reason, a meeting may be called on additional days. A 
      regularly scheduled meeting need not be held when the 
      Chairman determines there is not business to be considered.
         (b) The Chairman shall establish the agenda for meetings 
      of the Committee and the Ranking Minority Member may place 
      additional items on the agenda.
         (c) All meetings of the Committee or any subcommittee 
      shall occur in executive session unless the Committee or 
      subcommittee, by an affirmative vote of a majority of its 
      members, opens the meeting or hearing to the public.
         (d) Any hearing held by an adjudicatory subcommittee or 
      any sanction hearing held by the Committee shall be open to 
      the public unless the Committee or subcommittee, by an 
      affirmative vote of a majority of its members, closes the 
      hearing to the public.
         (e) A subcommittee shall meet at the discretion of its 
      Chairman.
         (f) Insofar as practicable, notice for any Committee or 
      subcommittee meeting shall be provided at least seven days in 
      advance of the meeting. The Chairman of the Committee or 
      subcommittee may waive such time period for good cause.

                         Rule 6. Committee Staff

         (a) The staff is to be assembled and retained as a 
      professional, nonpartisan staff.
         (b) Each member of the staff shall be professional and 
      demonstrably qualified for the position for which he is 
      hired.
         (c) The staff as a whole and each individual member of the 
      staff shall perform all official duties in a nonpartisan 
      manner.
         (d) No member of the staff shall engage in any partisan 
      political activity directly affecting any congressional or 
      presidential election.
         (e) No member of the staff or outside counsel may accept 
      public speaking engagements or write for publication on any 
      subject that is in any way related to his or her employment 
      or duties with the Committee without specific prior approval 
      from the Chairman and Ranking Minority Member.
         (f) No member of the staff or outside counsel may make 
      public, unless approved by an affirmative vote of a majority 
      of the members of the Committee, any information, document, 
      or other material that is confidential, derived from 
      executive session, or classified and that is obtained during 
      the course of employment with the Committee.
         (g) All staff members shall be appointed by an affirmative 
      vote of a majority of the members of the Committee. Such vote 
      shall occur at the first meeting of the membership of the 
      Committee during each Congress and as necessary during the 
      Congress.
         (h) Subject to the approval of the Committee on House 
      Oversight, the Committee may retain counsel not employed by 
      the House of Representatives whenever the Committee 
      determines, by an affirmative vote of a majority of the 
      members of the Committee, that the retention of outside 
      counsel is necessary and appropriate.
         (i) If the Committee determines that it is necessary to 
      retain staff members for the purpose of a particular 
      investigation or other proceeding, then such staff shall be 
      retained only for the duration of that particular 
      investigation or proceeding.
         (j) Outside counsel may be dismissed prior to the end of a 
      contract between the Committee and such counsel only by a 
      majority vote of the members of the Committee.
         (k) In addition to any other staff provided for by law, 
      rule, or other authority, with respect to the Committee, the 
      Chairman and Ranking Minority Member each may appoint one 
      individual as a shared staff member from his or her personal 
      staff to perform service for the Committee. Such shared staff 
      may assist the Chairman or Ranking Minority Member on any 
      subcommittee on which he serves. Only paragraphs (c), (e), 
      and (f) shall apply to shared staff.

                      Rule 7. Confidentiality Oaths

         Before any member or employee of the Committee may have 
      access to information that is confidential under the rules of 
      the Committee, the following oath (or affirmation) shall be 
      executed in writing:
         ``I do solemnly swear (or affirm) that I will not 
      disclose, to any person or entity outside the Committee on 
      Standards of Official Conduct, any information received in 
      the course of my service with the Committee, except as 
      authorized by the Committee or in accordance with its 
      rules.''
         Copies of the executed oath shall be provided to the Clerk 
      of the House as part of the records of the House. Breaches of 
      confidentiality shall be investigated by the Committee and 
      appropriate action shall be taken.

           Rule 8. Subcommittees--General Policy and Structure

         (a) Upon an affirmative vote of a majority of its members 
      to initiate an inquiry, the Chairman and Ranking Minority 
      Member of the Committee shall designate four members (with 
      equal representation from the majority and minority parties) 
      to serve as an investigative subcommittee to undertake an 
      inquiry. At the time of appointment, the Chairman shall 
      designate one member of the subcommittee to serve as the 
      chairman and the Ranking Minority Member shall designate one 
      member of the subcommittee to serve as the ranking minority 
      member of the investigative subcommittee or adjudicatory 
      subcommittee. The Chairman and Ranking Minority Member of the 
      Committee may serve as members of an investigative 
      subcommittee, but may not serve as non-voting, ex-officio 
      members.
         (b) If an investigative subcommittee, by a majority vote 
      of its members, adopts a Statement of Alleged Violation, 
      members who did not serve on the investigative subcommittee 
      are eligible for appointment to the adjudicatory subcommittee 
      to hold an Adjudicatory Hearing under Committee Rule 24 on 
      the violations alleged in the Statement.
         (c) The Committee may establish other noninvestigative and 
      nonadjudicatory subcommittees and may assign to them such 
      functions as it may deem appropriate. The membership of each 
      subcommittee shall provide equal representation for the 
      majority and minority parties.
         (d) The Chairman may refer any bill, resolution, or other 
      matter before the Committee to an appropriate subcommittee 
      for consideration. Any such bill, resolution, or other matter 
      may be discharged from the subcommittee to which it was 
      referred by a majority vote of the Committee.
         (e) Any member of the Committee may sit with any 
      noninvestigative or nonadjudicatory subcommittee, but only 
      regular members of such subcommittee may vote on any matter 
      before that subcommittee.

               Rule 9. Quorums and Member Disqualification

         (a) The quorum for an investigative subcommittee to take 
      testimony and to receive evidence shall be two members, 
      unless otherwise authorized by the House of Representatives.
         (b) The quorum for an adjudicatory subcommittee to take 
      testimony, receive evidence, or conduct business shall 
      consist of a majority plus one of the members of the 
      adjudicatory subcommittee.
         (c) Except as stated in clauses (a) and (b) of this rule, 
      a quorum for the purpose of conducting business consists of a 
      majority of the members of the Committee or subcommittee.
         (d) A member of the Committee shall be ineligible to 
      participate in any Committee or subcommittee proceeding in 
      which he is the respondent.
         (e) A member of the Committee may disqualify himself from 
      participating in any investigation of the conduct of a 
      Member, officer, or employee of the House of Representatives 
      upon the submission in writing and under oath of an affidavit 
      of disqualification stating that the member cannot render an 
      impartial and unbiased decision. If the Committee approves 
      and accepts such affidavit of disqualification, or if a 
      member is disqualified pursuant to Rule 18(g) or Rule 24(a), 
      the Chairman shall so notify the Speaker and ask the Speaker 
      to designate a Member of the House of Representatives from 
      the same political party as the disqualified member of the 
      Committee to act as a member of the Committee in any 
      Committee proceeding relating to such investigation.

                        Rule 10. Vote Requirements

         (a) The following actions shall be taken only upon an 
      affirmative vote of a majority of the members of the 
      Committee or subcommittee, as appropriate:
         (1) Issuing a subpoena.
         (2) Adopting a full Committee motion to create an 
      investigative subcommittee.
         (3) Adoption of a Statement of Alleged Violation.
         (4) Finding that a count in a Statement of Alleged 
      Violation has been proved by clear and convincing evidence.
         (5) Sending a letter of reproval.
         (6) Adoption of a recommendation to the House of 
      Representatives that a sanction be imposed.
         (7) Adoption of a report relating to the conduct of a 
      Member, officer, or employee.
         (8) Issuance of an advisory opinion of general 
      applicability establishing new policy.
         (b) Except as stated in clause (a), action may be taken by 
      the Committee or any subcommittee thereof by a simple 
      majority, a quorum being present.
         (c) No motion made to take any of the actions enumerated 
      in clause (a) of this Rule may be entertained by the Chair 
      unless a quorum of the Committee is present when such motion 
      is made.

          Rule 11. Communications by Committee Members and Staff

         Committee members and staff shall not disclose any 
      evidence relating to an investigation to any person or 
      organization outside the Committee unless authorized by the 
      Committee. The Chairman and Ranking Minority Member shall 
      have access to such information that they request as 
      necessary to conduct Committee business. Evidence in the 
      possession of an investigative subcommittee shall not be 
      disclosed to other Committee members except by a vote of the 
      subcommittee.

                        Rule 12. Committee Records

         (a) The Committee may establish procedures necessary to 
      prevent the unauthorized disclosure of any testimony or other 
      information received by the Committee or its staff.
         (b) Members and staff of the Committee shall not disclose 
      to any person or organization outside the Committee, unless 
      authorized by the Committee, any information regarding the 
      Committee's or a subcommittee's investigative, adjudicatory 
      or other proceedings, including, but not limited to: (i) the 
      fact of or nature of any complaints; (ii) executive session 
      proceedings; (iii) information pertaining to or copies of any 
      Committee or subcommittee report, study, or other document 
      which purports to express the views, findings, conclusions, 
      or recommendations of the Committee or subcommittee in 
      connection with any of its activities or proceedings; or (iv) 
      any other information or allegation respecting the conduct of 
      a Member, officer, or employee.
         (c) The Committee shall not disclose to any person or 
      organization outside the Committee any information concerning 
      the conduct of a respondent until it has transmitted a 
      Statement of Alleged Violation to such respondent and the 
      respondent has been given full opportunity to respond 
      pursuant to Rule 23. The Statement of Alleged Violation and 
      any written response thereto shall be made public at the 
      first meeting or hearing on the matter that is open to the 
      public after such opportunity has been provided. Any other 
      materials in the possession of the Committee regarding such 
      statement may be made public as authorized by the Committee 
      to the extent consistent with the Rules of the House of 
      Representatives.
         (d) If no public hearing or meeting is held on the matter, 
      the Statement of Alleged Violation and any written response 
      thereto shall be included in the Committee's final report on 
      the matter to the House of Representatives.
         (e) All communications and all pleadings pursuant to these 
      rules shall be filed with the Committee at the Committee's 
      office or such other place as designated by the Committee.
         (f) All records of the Committee which have been delivered 
      to the Archivist of the United States shall be made available 
      to the public in accordance with Rule XXXVI of the Rules of 
      the House of Representatives.

      Rule 13. Broadcasts of Committee and Subcommittee Proceedings

         (a) Television or radio coverage of a Committee or 
      subcommittee hearing or meeting shall be without commercial 
      sponsorship.
         (b) No witness shall be required against his or her will 
      to be photographed or otherwise to have a graphic 
      reproduction of his or her image made at any hearing or to 
      give evidence or testimony while the broadcasting of that 
      hearing, by radio or television, is being conducted. At the 
      request of any witness, all media microphones shall be turned 
      off, all television and camera lenses shall be covered, and 
      the making of a graphic reproduction at the hearing shall not 
      be permitted. This paragraph supplements clause 2(k)(5) of 
      Rule XI of the Rules of the House of Representatives relating 
      to the protection of the rights of witnesses.
         (c) Not more than four television cameras, operating from 
      fixed positions, shall be permitted in a hearing or meeting 
      room. The Committee may allocate the positions of permitted 
      television cameras among the television media in consultation 
      with the Executive Committee of the Radio and Television 
      Correspondents' Galleries.
         (d) Television cameras shall be placed so as not to 
      obstruct in any way the space between any witness giving 
      evidence or testimony and any member of the Committee, or the 
      visibility of that witness and that member to each other.
         (e) Television cameras shall not be placed in positions 
      that unnecessarily obstruct the coverage of the hearing or 
      meeting by the other media.

                     Part II--Investigative Authority

                        Rule 14. House Resolution

         Whenever the House of Representatives, by resolution, 
      authorizes or directs the Committee to undertake an inquiry 
      or investigation, the provisions of the resolution, in 
      conjunction with these Rules, shall govern. To the extent the 
      provisions of the resolution differ from these Rules, the 
      resolution shall control.

       Rule 15. Committee Authority to Investigate--General Policy

         Pursuant to clause 4(e)(2)(B) of Rule X of the Rules of 
      the House of Representatives, the Committee may exercise its 
      investigative authority when--
         (a) information offered as a complaint by a Member of the 
      House of Representatives is transmitted directly to the 
      Committee;
         (b) information offered as a complaint by an individual 
      not a Member of the House is transmitted to the Committee, 
      provided that a Member of the House certifies in writing that 
      he or she believes the information is submitted in good faith 
      and warrants the review and consideration of the Committee;
         (c) the Committee, on its own initiative, establishes an 
      investigative subcommittee;
         (d) a Member, officer, or employee is convicted in a 
      Federal, State, or local court of a felony; or
         (e) the House of Representatives, by resolution, 
      authorizes or directs the Committee to undertake an inquiry 
      or investigation.

                           Rule 16. Complaints

         (a) A complaint submitted to the Committee shall be in 
      writing, dated, and properly verified (a document will be 
      considered properly verified where a notary executes it with 
      the language, ``Signed and sworn to (or affirmed) before me 
      on (date) by (the name of the person)'' setting forth in 
      simple, concise, and direct statements--
         (1) the name and legal address of the party filing the 
      complaint (hereinafter referred to as the ``complainant'');
         (2) the name and position or title of the respondent;
         (3) the nature of the alleged violation of the Code of 
      Official Conduct or of other law, rule, regulation, or other 
      standard of conduct applicable to the performance of duties 
      or discharge of responsibilities; and
         (4) the facts alleged to give rise to the violation. The 
      complaint shall not contain innuendo, speculative assertions, 
      or conclusory statements.
         (b) Any documents in the possession of the complainant 
      that relate to the allegations may be submitted with the 
      complaint.
         (c) Information offered as a complaint by a Member of the 
      House of Representatives may be transmitted directly to the 
      Committee.
         (d) Information offered as a complaint by an individual 
      not a Member of the House may be transmitted to the 
      Committee, provided that a Member of the House certifies in 
      writing that he or she believes the information is submitted 
      in good faith and warrants the review and consideration of 
      the Committee.
         (e) A complaint must be accompanied by a certification, 
      which may be unsworn, that the complainant has provided an 
      exact copy of the filed complaint and all attachments to the 
      respondent.
         (f) The Committee may defer action on a complaint against 
      a Member, officer, or employee of the House of 
      Representatives when the complaint alleges conduct that the 
      Committee has reason to believe is being reviewed by 
      appropriate law enforcement or regulatory authorities, or 
      when the Committee determines that it is appropriate for the 
      conduct alleged in the complaint to be reviewed initially by 
      law enforcement or regulatory authorities.
         (g) A complaint may not be amended without leave of the 
      Committee. Otherwise, any new allegations of improper conduct 
      must be submitted in a new complaint that independently meets 
      the procedural requirements of the Rules of the House of 
      Representatives and the Committee's Rules.
         (h) The Committee shall not accept, and shall return to 
      the complainant, any complaint submitted within the 60 days 
      prior to an election in which the subject of the complaint is 
      a candidate.
         (i) The Committee shall not consider a complaint, nor 
      shall any investigation be undertaken by the Committee, of 
      any alleged violation which occurred before the third 
      previous Congress unless the Committee determines that the 
      alleged violation is directly related to an alleged violation 
      which occurred in a more recent Congress.

       Rule 17. Duties of Committee Chairman and Ranking Minority 
                                  Member

         (a) Unless otherwise determined by a vote of the 
      Committee, only the Chairman or Ranking Minority Member, 
      after consultation with each other, may make public 
      statements regarding matters before the Committee or any 
      subcommittee.
         (b) Whenever information offered as a complaint is 
      submitted to the Committee, the Chairman and Ranking Minority 
      Member shall have 14 calendar days or 5 legislative days, 
      whichever occurs first, to determine whether the information 
      meets the requirements of the Committee's rules for what 
      constitutes a complaint.
         (c) Whenever the Chairman and Ranking Minority Member 
      jointly determine that information submitted to the Committee 
      meets the requirements of the Committee's rules for what 
      constitutes a complaint, they shall have 45 calendar days or 
      5 legislative days, whichever is later, after the date that 
      the Chairman and Ranking Minority Member determine that 
      information filed meets the requirements of the Committee's 
      rules for what constitutes a complaint, unless the Committee 
      by an affirmative vote of a majority of its members votes 
      otherwise, to--
         (1) recommend to the Committee that it dispose of the 
      complaint, or any portion thereof, in any manner that does 
      not require action by the House, which may include dismissal 
      of the complaint or resolution of the complaint by a letter 
      to the Member, officer, or employee of the House against whom 
      the complaint is made;
         (2) establish an investigative subcommittee; or
         (3) request that the Committee extend the applicable 45-
      calendar day period when they determine more time is 
      necessary in order to make a recommendation under paragraph 
      (1).
         (d) The Chairman and Ranking Minority Member may jointly 
      gather additional information concerning alleged conduct 
      which is the basis of a complaint or of information offered 
      as a complaint until they have established an investigative 
      subcommittee or the Chairman or Ranking Minority Member has 
      placed on the agenda the issue of whether to establish an 
      investigative subcommittee.
         (e) If the Chairman and Ranking Minority Member jointly 
      determine that information submitted to the Committee meets 
      the requirements of the Committee rules for what constitutes 
      a complaint, and the complaint is not disposed of within 45 
      calendar days or 5 legislative days, whichever is later, and 
      no additional 45-day extension is made, then they shall 
      establish an investigative subcommittee and forward the 
      complaint, or any portion thereof, to that subcommittee for 
      its consideration. If at any time during the time period 
      either the Chairman or Ranking Minority Member places on the 
      agenda the issue of whether to establish an investigative 
      subcommittee, then an investigative subcommittee may be 
      established only by an affirmative vote of a majority of the 
      members of the Committee.
         (f) Whenever the Chairman and Ranking Minority Member 
      jointly determine that information submitted to the Committee 
      does not meet the requirements for what constitutes a 
      complaint set forth in the Committee rules, they may (1) 
      return the information to the complainant with a statement 
      that it fails to meet the requirements for what constitutes a 
      complaint set forth in the Committee's rules; or (2) 
      recommend to the Committee that it authorize the 
      establishment of an investigative subcommittee.

                    Rule 18. Processing of Complaints

         (a) If a complaint is in compliance with House and 
      Committee Rules, a copy of the complaint and the Committee 
      Rules shall be forwarded to the respondent within five days 
      with notice that the complaint conforms to the applicable 
      rules and will be placed on the Committee's agenda.
         (b) The respondent may, within 30 days of the Committee's 
      notification, provide to the Committee any information 
      relevant to a complaint filed with the Committee. The 
      respondent may submit a written statement in response to the 
      complaint. Such a statement shall be signed by the 
      respondent. If the statement is prepared by counsel for the 
      respondent, the respondent shall sign a representation that 
      he/she has reviewed the response and agrees with the factual 
      assertions contained therein.
         (c) The Committee staff may request information from the 
      respondent or obtain additional information pertinent to the 
      case from other sources prior to the establishment of an 
      investigative subcommittee only when so directed by the 
      Chairman and Ranking Minority Member.
         (d) At the first meeting of the Committee following the 
      procedures or actions specified in clauses (a) and (b), the 
      Committee shall consider the complaint.
         (e) The Committee, by a majority vote of its members, may 
      create an investigative subcommittee. If an investigative 
      subcommittee is established, the Chairman and Ranking 
      Minority Member shall designate four members to serve as an 
      investigative subcommittee in accordance with Rule 20.
         (f) The respondent shall be notified in writing regarding 
      the Committee's decision either to dismiss the complaint or 
      to create an investigative subcommittee.
         (g) The respondent shall be notified of the membership of 
      the investigative subcommittee and shall have ten days after 
      such notice is transmitted to object to the participation of 
      any subcommittee member. Such objection shall be in writing 
      and shall be on the grounds that the subcommittee member 
      cannot render an impartial and unbiased decision. The 
      subcommittee member against whom the objection is made shall 
      be the sole judge of his or her disqualification.

                   Rule 19. Committee-Initiated Inquiry

         (a) Notwithstanding the absence of a filed complaint, the 
      Committee may consider any information in its possession 
      indicating that a Member, officer, or employee may have 
      committed a violation of the Code of Official Conduct or any 
      law, rule, regulation, or other standard of conduct 
      applicable to the conduct of such Member, officer, or 
      employee in the performance of his or her duties or the 
      discharge of his or her responsibilities.
         (b) If the Committee votes to establish an investigative 
      subcommittee, the Committee shall proceed in accordance with 
      Rule 20.
         (c) Any written request by a Member, officer, or employee 
      of the House of Representatives that the Committee conduct an 
      inquiry into such person's own conduct shall be processed in 
      accordance with subsection (a) of this Rule.
         (d) An inquiry shall not be undertaken regarding any 
      alleged violation that occurred before the third previous 
      Congress unless a majority of the Committee determines that 
      the alleged violation is directly related to an alleged 
      violation that occurred in a more recent Congress.
         (e) An inquiry shall be undertaken by an investigative 
      subcommittee with regard to any felony conviction of a 
      Member, officer, or employee of the House of Representatives 
      in a Federal, state, or local court. Notwithstanding this 
      provision, an inquiry may be initiated at any time prior to 
      sentencing.

                   Rule 20. Investigative Subcommittee

         (a) In an inquiry undertaken by an investigative 
      subcommittee--
         (1) All proceedings, including the taking of testimony, 
      shall be conducted in executive session and all testimony 
      taken by deposition or things produced pursuant to subpoena 
      or otherwise shall be deemed to have been taken or produced 
      in executive session.
         (2) The Chairman of the investigative subcommittee shall 
      ask respondent and all witnesses whether they intend to be 
      represented by counsel. If so, respondent or witnesses or 
      their legal representatives shall provide written designation 
      of counsel. A respondent or witness who is represented by 
      counsel shall not be questioned in the absence of counsel 
      unless an explicit waiver is obtained.
         (3) The subcommittee shall provide the respondent an 
      opportunity to present, orally or in writing, a statement, 
      which must be under oath or affirmation, regarding the 
      allegations and any other relevant questions arising out of 
      the inquiry.
         (4) The staff may interview witnesses, examine documents 
      and other evidence, and request that submitted statements be 
      under oath or affirmation and that documents be certified as 
      to their authenticity and accuracy.
         (5) The subcommittee, by a majority vote of its members, 
      may require, by subpoena or otherwise, the attendance and 
      testimony of witnesses and the production of such books, 
      records, correspondence, memoranda, papers, documents, and 
      other items as it deems necessary to the conduct of the 
      inquiry. Unless the Committee otherwise provides, the 
      subpoena power shall rest in the Chairman and Ranking 
      Minority Member of the Committee and a subpoena shall be 
      issued upon the request of the investigative subcommittee.
         (6) The subcommittee shall require that testimony be given 
      under oath or affirmation. The form of the oath or 
      affirmation shall be: ``Do you solemnly swear (or affirm) 
      that the testimony you will give before this subcommittee in 
      the matter now under consideration will be the truth, the 
      whole truth, and nothing but the truth (so help you God)?'' 
      The oath or affirmation shall be administered by the Chairman 
      or subcommittee member designated by the Chairman to 
      administer oaths.
         (b) During the inquiry, the procedure respecting the 
      admissibility of evidence and rulings shall be as follows:
         (1) Any relevant evidence shall be admissible unless the 
      evidence is privileged under the precedents of the House of 
      Representatives.
         (2) The Chairman of the subcommittee or other presiding 
      member at any investigative subcommittee proceeding shall 
      rule upon any question of admissibility or pertinency of 
      evidence, motion, procedure or any other matter, and may 
      direct any witness to answer any question under penalty of 
      contempt. A witness, witness's counsel, or a member of the 
      subcommittee may appeal any evidentiary rulings to the 
      members present at that proceeding. The majority vote of the 
      members present at such proceeding on such appeal shall 
      govern the question of admissibility, and no appeal shall lie 
      to the Committee.
         (3) Whenever a person is determined by a majority vote to 
      be in contempt of the subcommittee, the matter may be 
      referred to the Committee to determine whether to refer the 
      matter to the House of Representatives for consideration.
         (4) Committee counsel may, subject to subcommittee 
      approval, enter into stipulations with respondent and/or 
      respondent's counsel as to facts that are not in dispute.
         (c) Upon an affirmative vote of a majority of the 
      subcommittee members, and an affirmative vote of a majority 
      of the full Committee, an investigative subcommittee may 
      expand the scope of its investigation.
         (d) Upon completion of the investigation, the staff shall 
      draft for the investigative subcommittee a report that shall 
      contain a comprehensive summary of the information received 
      regarding the alleged violations.
         (e) Upon completion of the inquiry, an investigative 
      subcommittee, by a majority vote of its members, may adopt a 
      Statement of Alleged Violation if it determines that there is 
      substantial reason to believe that a violation of the Code of 
      Official Conduct, or of a law, rule, regulation, or other 
      standard of conduct applicable to the performance of official 
      duties or the discharge of official responsibilities by a 
      Member, officer, or employee of the House of Representatives 
      has occurred. If more than one violation is alleged, such 
      Statement shall be divided into separate counts. Each count 
      shall relate to a separate violation, shall contain a plain 
      and concise statement of the alleged facts of such violation, 
      and shall include a reference to the provision of the Code of 
      Official Conduct or law, rule, regulation or other applicable 
      standard of conduct governing the performance of duties or 
      discharge of responsibilities alleged to have been violated. 
      A copy of such Statement shall be transmitted to the 
      respondent and respondent's counsel.
         (f) If the investigative subcommittee does not adopt a 
      Statement of Alleged Violation, it shall transmit to the 
      Committee a report containing a summary of the information 
      received in the inquiry, its conclusions and reasons 
      therefor, and any appropriate recommendation. The Committee 
      shall transmit such report to the House of Representatives.

          Rule 21. Amendments of Statements of Alleged Violation

         (a) An investigative subcommittee may, upon an affirmative 
      vote of a majority of its members, amend its Statement of 
      Alleged Violation anytime before the Statement of Alleged 
      Violation is transmitted to the Committee; and
         (b) If an investigative subcommittee amends its Statement 
      of Alleged Violation, the respondent shall be notified in 
      writing and shall have 30 calendar days from the date of that 
      notification to file an answer to the amended Statement of 
      Alleged Violation.

                Rule 22. Committee Reporting Requirements

         (a) Whenever an investigative subcommittee does not adopt 
      a Statement of Alleged Violation and transmits a report to 
      that effect to the Committee, the Committee may by an 
      affirmative vote of a majority of its members transmit such 
      report to the House of Representatives; and
         (b) Whenever an investigative subcommittee adopts a 
      Statement of Alleged Violation, the respondent admits to the 
      violations set forth in such Statement, the respondent waives 
      his or her right to an adjudicatory hearing, and the 
      respondent's waiver is approved by the Committee--
         (1) the subcommittee shall prepare a report for 
      transmittal to the Committee, a final draft of which shall be 
      provided to the respondent not less than 15 calendar days 
      before the subcommittee votes on whether to adopt the report;
         (2) the respondent may submit views in writing regarding 
      the final draft to the subcommittee within 7 calendar days of 
      receipt of that draft;
         (3) the subcommittee shall transmit a report to the 
      Committee regarding the Statement of Alleged Violation 
      together with any views submitted by the respondent pursuant 
      to subparagraph (2), and the Committee shall make the report, 
      together with the respondent's views, available to the public 
      before the commencement of any sanction hearing; and
         (4) the Committee shall by an affirmative vote of a 
      majority of its members issue a report and transmit such 
      report to the House of Representatives, together with the 
      respondent's views previously submitted pursuant to 
      subparagraph (2) and any additional views respondent may 
      submit for attachment to the final report; and
         (c) Members of the Committee shall have not less than 72 
      hours to review any report transmitted to the Committee by an 
      investigative subcommittee before both the commencement of a 
      sanction hearing and the Committee vote on whether to adopt 
      the report.

                       Rule 23. Respondent's Answer

         (a)(1) Within 30 days from the date of transmittal of a 
      Statement of Alleged Violation, the respondent shall file 
      with the investigative subcommittee an answer, in writing and 
      under oath, signed by respondent and respondent's counsel. 
      Failure to file an answer within the time prescribed shall be 
      considered by the Committee as a denial of each count.
         (2) The answer shall contain an admission to or denial of 
      each count set forth in the Statement of Alleged Violation 
      and may include negative, affirmative, or alternative 
      defenses and any supporting evidence or other relevant 
      information.
         (b) The respondent may file a Motion for a Bill of 
      Particulars within 15 days of the date of transmittal of the 
      Statement of Alleged Violation. If a Motion for a Bill of 
      Particulars is filed, the respondent shall not be required to 
      file an answer until 15 days after the subcommittee has 
      replied to such motion.
         (c)(1) The respondent may file a Motion to Dismiss within 
      15 days of the date of transmittal of the Statement of 
      Alleged Violation or, if a Motion for a Bill of Particulars 
      has been filed, within 15 days of the date of the 
      subcommittee's reply to the Motion for a Bill of Particulars. 
      If a Motion to Dismiss is filed, the respondent shall not be 
      required to file an answer until 15 days after the 
      subcommittee has replied to the Motion to Dismiss.
         (2) A Motion to Dismiss may be made on the grounds that 
      the Statement of Alleged Violation fails to state facts that 
      constitute a violation of the Code of Official Conduct or 
      other applicable law, rule, regulation, or standard of 
      conduct, or on the grounds that the Committee lacks 
      jurisdiction to consider the allegations contained in the 
      Statement.
         (d) Any motion filed with the subcommittee pursuant to 
      this rule shall be accompanied by a Memorandum of Points and 
      Authorities.
         (e)(1) The Chairman of the investigative subcommittee, for 
      good cause shown, may permit the respondent to file an answer 
      or motion after the day prescribed above.
         (2) If the ability of the respondent to present an 
      adequate defense is not adversely affected and special 
      circumstances so require, the Chairman of the investigative 
      subcommittee may direct the respondent to file an answer or 
      motion prior to the day prescribed above.
         (f) If the day on which any answer, motion, reply, or 
      other pleading must be filed falls on a Saturday, Sunday, or 
      holiday, such filing shall be made on the first business day 
      thereafter.
         (g) As soon as practicable after an answer has been filed 
      or the time for such filing has expired, the Statement of 
      Alleged Violation and any answer, motion, reply, or other 
      pleading connected therewith shall be transmitted by the 
      Chairman of the investigative subcommittee to the Chairman 
      and Ranking Minority Member of the Committee.

                      Rule 24. Adjudicatory Hearings

         (a) If a Statement of Alleged Violation is transmitted to 
      the Chairman and Ranking Minority Member pursuant to Rule 23, 
      and no waiver pursuant to Rule 27(b) has occurred, the 
      Chairman shall designate the members of the Committee who did 
      not serve on the investigative subcommittee to serve on an 
      adjudicatory subcommittee. The Chairman and Ranking Minority 
      Member of the Committee shall be the Chairman and Ranking 
      Minority Member of the adjudicatory subcommittee unless they 
      served on the investigative subcommittee. The respondent 
      shall be notified of the designation of the adjudicatory 
      subcommittee and shall have ten days after such notice is 
      transmitted to object to the participation of any 
      subcommittee member. Such objection shall be in writing and 
      shall be on the grounds that the member cannot render an 
      impartial and unbiased decision. The member against whom the 
      objection is made shall be the sole judge of his or her 
      disqualification.
         (b) A majority of the adjudicatory subcommittee membership 
      plus one must be present at all times for the conduct of any 
      business pursuant to this rule.
         (c) The adjudicatory subcommittee shall hold a hearing to 
      determine whether any counts in the Statement of Alleged 
      Violation have been proved by clear and convincing evidence 
      and shall make findings of fact, except where such violations 
      have been admitted by respondent.
         (d) At an adjudicatory hearing, the subcommittee may 
      require, by subpoena or otherwise, the attendance and 
      testimony of such witnesses and production of such books, 
      records, correspondence, memoranda, papers, documents, and 
      other items as it deems necessary. Depositions, 
      interrogatories, and sworn statements taken under any 
      investigative subcommittee direction may be accepted into the 
      hearing record.
         (e) The procedures set forth in clause 2 (g) and (k) of 
      Rule XI of the Rules of the House of Representatives shall 
      apply to adjudicatory hearings. All such hearings shall be 
      open to the public unless the adjudicatory subcommittee, 
      pursuant to such clause, determines that the hearings or any 
      part thereof should be closed.
         (f)(1) The adjudicatory subcommittee shall, in writing, 
      notify the respondent that respondent and his or her counsel 
      have the right to inspect, review, copy, or photograph books, 
      papers, documents, photographs, or other tangible objects 
      that the adjudicatory subcommittee counsel intends to use as 
      evidence against the respondent in an adjudicatory hearing. 
      Respondent shall be given access to such evidence, and shall 
      be provided the names of witnesses the subcommittee counsel 
      intends to call, and a summary of their expected testimony, 
      no less than 15 calendar days prior to any such hearing. 
      Except in extraordinary circumstances, no evidence may be 
      introduced or witness called in an adjudicatory hearing 
      unless respondent has been afforded a prior opportunity to 
      review such evidence or has been provided the name of the 
      witness.
         (2) After a witness has testified on direct examination at 
      an adjudicatory hearing, the Committee, at the request of the 
      respondent, shall make available to the respondent any 
      statement of the witness in the possession of the Committee 
      which relates to the subject matter as to which the witness 
      has testified.
         (3) Any other testimony, statement, or documentary 
      evidence in the possession of the Committee which is material 
      to the respondent's defense shall, upon request, be made 
      available to the respondent.
         (g) No less than five days prior to the hearing, 
      respondent or counsel shall provide the adjudicatory 
      subcommittee with the names of witnesses expected to be 
      called, summaries of their expected testimony, and copies of 
      any documents or other evidence proposed to be introduced.
         (h) The respondent or counsel may apply to the 
      subcommittee for the issuance of subpoenas for the appearance 
      of witnesses or the production of evidence. The application 
      shall be granted upon a showing by the respondent that the 
      proposed testimony or evidence is relevant and not otherwise 
      available to respondent. The application may be denied if not 
      made at a reasonable time or if the testimony or evidence 
      would be merely cumulative.
         (i) During the hearing, the procedures regarding the 
      admissibility of evidence and rulings shall be as follows:
         (1) Any relevant evidence shall be admissible unless the 
      evidence is privileged under the precedents of the House of 
      Representatives.
         (2) The Chairman of the subcommittee or other presiding 
      member at an adjudicatory subcommittee hearing shall rule 
      upon any question of admissibility or pertinency of evidence, 
      motion, procedure, or any other matter, and may direct any 
      witness to answer any question under penalty of contempt. A 
      witness, witness's counsel, or a member of the subcommittee 
      may appeal any evidentiary ruling to the members present at 
      that proceeding. The majority vote of the members present at 
      such proceeding on such an appeal shall govern the question 
      of admissibility and no appeal shall lie to the Committee.
         (3) Whenever a witness is deemed by a Chairman or other 
      presiding member to be in contempt of the subcommittee, the 
      matter may be referred to the Committee to determine whether 
      to refer the matter to the House of Representatives for 
      consideration.
         (4) Committee counsel may, subject to subcommittee 
      approval, enter into stipulations with respondent and/or 
      respondent's counsel as to facts that are not in dispute.
         (j) Unless otherwise provided, the order of an 
      adjudicatory hearing shall be as follows:
         (1) The Chairman of the subcommittee shall open the 
      hearing by stating the adjudicatory subcommittee's authority 
      to conduct the hearing and the purpose of the hearing.
         (2) The Chairman shall then recognize Committee counsel 
      and respondent's counsel, in turn, for the purpose of giving 
      opening statements.
         (3) Testimony from witnesses and other pertinent evidence 
      shall be received in the following order whenever possible:
         (i) witnesses (deposition transcripts and affidavits 
      obtained during the inquiry may be used in lieu of live 
      witnesses if the witness is unavailable) and other evidence 
      offered by the Committee counsel,
         (ii) witnesses and other evidence offered by the 
      respondent,
         (iii) rebuttal witnesses, as permitted by the Chairman.
         (4) Witnesses at a hearing shall be examined first by 
      counsel calling such witness. The opposing counsel may then 
      cross-examine the witness. Redirect examination and recross 
      examination may be permitted at the Chairman's discretion. 
      Subcommittee members may then question witnesses. Unless 
      otherwise directed by the Chairman, such questions shall be 
      conducted under the five-minute rule.
         (k) A subpoena to a witness to appear at a hearing shall 
      be served sufficiently in advance of that witness' scheduled 
      appearance to allow the witness a reasonable period of time, 
      as determined by the Chairman of the adjudicatory 
      subcommittee, to prepare for the hearing and to employ 
      counsel.
         (l) Each witness appearing before the subcommittee shall 
      be furnished a printed copy of the Committee rules, the 
      pertinent provisions of the Rules of the House of 
      Representatives applicable to the rights of witnesses, and a 
      copy of the Statement of Alleged Violation.
         (m) Testimony of all witnesses shall be taken under oath 
      or affirmation. The form of the oath or affirmation shall be: 
      ``Do you solemnly swear (or affirm) that the testimony you 
      will give before this subcommittee in the matter now under 
      consideration will be the truth, the whole truth, and nothing 
      but the truth (so help you God)?'' The oath or affirmation 
      shall be administered by the Chairman or Committee member 
      designated by the Chairman to administer oaths.
         (n) At an adjudicatory hearing, the burden of proof rests 
      on Committee counsel to establish the facts alleged in the 
      Statement of Alleged Violation by clear and convincing 
      evidence. However, Committee counsel need not present any 
      evidence regarding any count that is admitted by the 
      respondent or any fact stipulated.
         (o) As soon as practicable after all testimony and 
      evidence have been presented, the subcommittee shall consider 
      each count contained in the Statement of Alleged Violation 
      and shall determine by a majority vote of its members whether 
      each count has been proved. If a majority of the subcommittee 
      does not vote that a count has been proved, a motion to 
      reconsider that vote may be made only by a member who voted 
      that the count was not proved. A count that is not proved 
      shall be considered as dismissed by the subcommittee.
         (p) The findings of the adjudicatory subcommittee shall be 
      reported to the Committee.

       Rule 25. Sanction Hearing and Consideration of Sanctions or 
                          Other Recommendations

         (a) If no count in a Statement of Alleged Violation is 
      proved, the Committee shall prepare a report to the House of 
      Representatives, based upon the report of the adjudicatory 
      subcommittee.
         (b) If an adjudicatory subcommittee completes an 
      adjudicatory hearing pursuant to Rule 24 and reports that any 
      count of the Statement of Alleged Violation has been proved, 
      a hearing before the Committee shall be held to receive oral 
      and/or written submissions by counsel for the Committee and 
      counsel for the respondent as to the sanction the Committee 
      should recommend to the House of Representatives with respect 
      to such violations. Testimony by witnesses shall not be heard 
      except by written request and vote of a majority of the 
      Committee.
         (c) Upon completion of any proceeding held pursuant to 
      clause (b), the Committee shall consider and vote on a motion 
      to recommend to the House of Representatives that the House 
      take disciplinary action. If a majority of the Committee does 
      not vote in favor of the recommendation that the House of 
      Representatives take action, a motion to reconsider that vote 
      may be made only by a member who voted against the 
      recommendation. The Committee may also, by majority vote, 
      adopt a motion to issue a Letter of Reproval or take other 
      appropriate Committee action.
         (d) If the Committee determines a Letter of Reproval 
      constitutes sufficient action, the Committee shall include 
      any such letter as a part of its report to the House of 
      Representatives.
         (e) With respect to any proved counts against a Member of 
      the House of Representatives, the Committee may recommend to 
      the House one or more of the following sanctions:
         (1) Expulsion from the House of Representatives.
         (2) Censure.
         (3) Reprimand.
         (4) Fine.
         (5) Denial or limitation of any right, power, privilege, 
      or immunity of the Member if under the Constitution the House 
      of Representatives may impose such denial or limitation.
         (6) Any other sanction determined by the Committee to be 
      appropriate.
         (f) With respect to any proved counts against an officer 
      or employee of the House of Representatives, the Committee 
      may recommend to the House one or more of the following 
      sanctions:
         (1) Dismissal from employment.
         (2) Reprimand.
         (3) Fine.
         (4) Any other sanction determined by the Committee to be 
      appropriate.
         (g) With respect to the sanctions that the Committee may 
      recommend, reprimand is appropriate for serious violations, 
      censure is appropriate for more serious violations, and 
      expulsion of a Member or dismissal of an officer or employee 
      is appropriate for the most serious violations. A 
      recommendation of a fine is appropriate in a case in which it 
      is likely that the violation was committed to secure a 
      personal financial benefit; and a recommendation of a denial 
      or limitation of a right, power, privilege, or immunity of a 
      Member is appropriate when the violation bears upon the 
      exercise or holding of such right, power, privilege, or 
      immunity. This clause sets forth general guidelines and does 
      not limit the authority of the Committee to recommend other 
      sanctions.
         (h) The Committee report shall contain an appropriate 
      statement of the evidence supporting the Committee's findings 
      and a statement of the Committee's reasons for the 
      recommended sanction.

       Rule 26. Disclosure of Exculpatory Information to Respondent

         If the Committee, or any investigative or adjudicatory 
      subcommittee at any time receives any exculpatory information 
      respecting a Complaint or Statement of Alleged Violation 
      concerning a Member, officer, or employee of the House of 
      Representatives, it shall make such information immediately 
      known and available to the Member, officer, or employee. For 
      purposes of this rule, exculpatory evidence shall be any 
      evidence or information that is substantially favorable to 
      the respondent with respect to the allegations or charges 
      before an investigative or adjudicatory subcommittee.

               Rule 27. Rights of Respondents and Witnesses

         (a) A respondent shall be informed of the right to be 
      represented by counsel, to be provided at his or her own 
      expense.
         (b) A respondent may seek to waive any procedural rights 
      or steps in the disciplinary process. A request for waiver 
      must be in writing, signed by the respondent, and must detail 
      what procedural steps respondent seeks to waive. Any such 
      request shall be subject to the acceptance of the Committee 
      or subcommittee, as appropriate.
         (c) Not less than 10 calendar days before a scheduled vote 
      by an investigative subcommittee on a Statement of Alleged 
      Violation, the subcommittee shall provide the respondent with 
      a copy of the Statement of Alleged Violation it intends to 
      adopt together with all evidence it intends to use to prove 
      those charges which it intends to adopt, including 
      documentary evidence, witness testimony, memoranda of witness 
      interviews, and physical evidence, unless the subcommittee by 
      an affirmative vote of a majority of its members decides to 
      withhold certain evidence in order to protect a witness, but 
      if such evidence is withheld, the subcommittee shall inform 
      the respondent that evidence is being withheld and of the 
      count to which such evidence relates.
         (d) Neither the respondent nor his counsel shall, directly 
      or indirectly, contact the subcommittee or any member thereof 
      during the period of time set forth in paragraph (c) except 
      for the sole purpose of settlement discussions where counsels 
      for the respondent and the subcommittee are present.
         (e) If, at any time after the issuance of a Statement of 
      Alleged Violation, the Committee or any subcommittee thereof 
      determines that it intends to use evidence not provided to a 
      respondent under paragraph (c) to prove the charges contained 
      in the Statement of Alleged Violation (or any amendment 
      thereof), such evidence shall be made immediately available 
      to the respondent, and it may be used in any further 
      proceeding under the Committee's rules.
         (f) Evidence provided pursuant to paragraph (c) or (e) 
      shall be made available to the respondent and his or her 
      counsel only after each agrees, in writing, that no document, 
      information, or other materials obtained pursuant to that 
      paragraph shall be made public until--
         (1) such time as a Statement of Alleged Violation is made 
      public by the Committee if the respondent has waived the 
      adjudicatory hearing; or
         (2) the commencement of an adjudicatory hearing if the 
      respondent has not waived an adjudicatory hearing; but the 
      failure of respondent and his counsel to so agree in writing, 
      and therefore not receive the evidence, shall not preclude 
      the issuance of a Statement of Alleged Violation at the end 
      of the period referenced to in (c).
         (g) A respondent shall receive written notice whenever--
         (1) the Chairman and Ranking Minority Member determine 
      that information the Committee has received constitutes a 
      complaint;
         (2) a complaint or allegation is transmitted to an 
      investigative subcommittee;
         (3) that subcommittee votes to authorize its first 
      subpoena or to take testimony under oath, whichever occurs 
      first; and
         (4) the Committee votes to expand the scope of the inquiry 
      of an investigative subcommittee.
         (h) Whenever an investigative subcommittee adopts a 
      Statement of Alleged Violation and a respondent enters into 
      an agreement with that subcommittee to settle a complaint on 
      which the Statement is based, that agreement, unless the 
      respondent requests otherwise, shall be in writing and signed 
      by the respondent and respondent's counsel, the Chairman and 
      Ranking Minority Member of the subcommittee, and the outside 
      counsel, if any.
         (i) Statements or information derived solely from a 
      respondent or his counsel during any settlement discussions 
      between the Committee or a subcommittee thereof and the 
      respondent shall not be included in any report of the 
      subcommittee or the Committee or otherwise publicly disclosed 
      without the consent of the respondent;
         (j) Whenever a motion to establish an investigative 
      subcommittee does not prevail, the Committee shall promptly 
      send a letter to the respondent informing him of such vote.
         (k) Witnesses shall be afforded a reasonable period of 
      time, as determined by the Committee or subcommittee, to 
      prepare for an adjudicatory hearing or for an appearance 
      before an investigative subcommittee, and to obtain counsel.
         (l) Except as otherwise specifically authorized by the 
      Committee, no Committee member or staff member shall disclose 
      to any person outside the Committee the name of any witness 
      subpoenaed to testify or to produce evidence.
         (m) Prior to their testimony, witnesses shall be furnished 
      a printed copy of the Committee's Rules of Procedure and the 
      provisions of the Rules of the House of Representatives 
      applicable to the rights of witnesses.
         (n) Witnesses may be accompanied by their own counsel for 
      the purpose of advising them concerning their constitutional 
      rights. The Chairman may punish breaches of order and 
      decorum, and of professional responsibility on the part of 
      counsel, by censure and exclusion from the hearings; and the 
      Committee may cite the offender to the House of 
      Representatives for contempt.
         (o) Each witness subpoenaed to provide testimony of other 
      evidence shall be provided such travel expenses as the 
      Chairman considers appropriate. No compensation shall be 
      authorized for attorney's fees or for a witness' lost 
      earnings.
         (p) With the approval of the Committee, a witness, upon 
      request, may be provided with a transcript of his or her 
      deposition or other testimony taken in executive session, or, 
      with the approval of the Chairman and Ranking Minority 
      Member, may be permitted to examine such transcript in the 
      office of the Committee. Any such request shall be in writing 
      and shall include a statement that the witness, and counsel, 
      agree to maintain the confidentiality of all executive 
      session proceedings covered by such transcript.

                        Rule 28. Frivolous Filings

         If a complaint or information offered as a complaint is 
      deemed frivolous by an affirmative vote of a majority of the 
      members of the Committee, the Committee may take such action 
      as it, by an affirmative vote of its members, deems 
      appropriate in the circumstances.

            Rule 29. Referrals to Federal or State Authorities

         Referrals made under Clause 4(e)(1)(C) of rule X of the 
      Rules of the House of Representatives may be made by an 
      affirmative vote of two-thirds of the members of the 
      Committee.

                  U.S. Government Printing Office: 44-597 (12399)
</pre></body></html>
